  OFFICE OF THE INSPECTOR GENERAL
   CORPORATION FOR NATIONAL AND
        COMMUNITY SERVICE




         OIG Letter Report Regarding
Corporation for National and Community Service
 Contract No. 94-007 with Meridian Corporation


       OIG Audit Report Number 01-27
              October 6,2000
                                                                                      CORPORATION

                                                                                      FOR N A T I O N A L




OIG Letter Report 01-27

October 6, 2000

Mr. Anthony Musick, Chief Financial Officer
Corporation for National and Community Service

Dear Mr. Musick:

Pursuant to a request received from the Corporation for National and Community Service, the
Office of the Inspector General included the Corporation's contract with Meridian Corporation
(Contract Number 94-007) in its Fiscal Year 2000 audit plan. The contract between the
Corporation and Meridian was executed on September 29, 1994. Under the contract, Meridian
provided technical support in information collection, analysis and evaluation of Office of
National and Community Service Programs grant programs. Services were reimbursed on a time
and materials basis. Although the contract provided for a base period and two option periods in
the amounts of $600,000, $700,000, and $800,000, respectively, the Corporation did not extend
any of the option periods.

OIG retained Cotton & Company, LLP, to perform preliminary survey work of the contract to
determine the scope of audit work to be performed. As a result of their preliminary work, Cotton
& Company has advised OIG that

       Total costs invoiced under the contract were limited to $194,033. The contractor billed
       costs at labor rates as specified in the contract. Cotton & Company also estimated that a
       possible cost exception that it noted would be less than $1,000.

       The Corporation was aware of shortcomings in the contractor's performance as early as
       June 1995. A June 20, 1995, letter from a Corporation procurement office employee to
       the contractor indicated that Meridian was not submitting required monthly financial
       reports, which were to include summaries of expenditures by task both for the month and
       cumulatively (in addition to Meridian's invoices). However, the Corporation did not
       advise OIG of these issues nor request an audit of the contract costs until 1999 (in
       response to OIG's solicitation for its FY 2000 audit plan).

       Meridian Corporation is no longer in business, and OIG learned that Meridian filed for
       Chapter 11 Bankruptcy in 1999, the creditors class closed in March, 2000, and discharge
       of all debts is pending approval by the Bankruptcy Court.




                                                                                  Inspecbr General
                                                                                  1201 New York Avenue, NW
                                                                                  Washington, DC 20525
Based on this preliminary information, the relatively low dollar amount of claimed costs, the age
and accessibility of the records, and the age of the issues related to the contractor's performance
identified in the Corporation's letter, OIG has concluded that further audit work is not warranted
at this time. If you have any questions about this report or wish to discuss this matter further,
please contact me.




Luise S. Jordan
Inspector General
